VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                        Inspection of

                                                                     VA Regional Office

                                                                    Milwaukee, Wisconsin





                                                                                   August 8, 2013
                                                                                    13-01445-271
            ACRONYMS AND ABBREVIATIONS


OIG         Office of Inspector General
RVSR        Rating Veterans Service Representative
SAO         Systematic Analysis of Operations
STAR        Systematic Technical Accuracy Review
TBI         Traumatic Brain Injury
VARO        Veterans Affairs Regional Office
VBA         Veterans Benefits Administration
VSC         Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations:

                           Telephone: 1-800-488-8244

                            Email: vaoighotline@va.gov

                   (Hotline Information: www.va.gov/oig/hotline)

                 Report Highlights: Inspection of VA
                 Regional Office, Milwaukee, WI

Why We Did This Review                          homeless veterans in the VAROs area of
                                                jurisdiction; however, we could not fully
The Veterans Benefits Administration            assess the effectiveness of these outreach
(VBA) has 56 VA Regional Offices                activities because VBA needs performance
(VAROs) and 1 Veterans Service Center in        metrics for its homeless veterans outreach
Cheyenne, Wyoming, that process disability      program.
claims and provide a range of services to
veterans. We evaluated the Milwaukee            What We Recommend
VARO to see how well it accomplishes this
mission.                                        The VARO Director should implement a
                                                plan to ensure staff review for accuracy the
What We Found                                   294 temporary 100 percent disability
                                                evaluations we provided at the end of this
Overall, VARO staff did not accurately          inspection.
process 8 of 49 disability claims reviewed.
We sampled claims we consider to be at          Agency Comments
higher risk of processing errors, thus these
results do not represent the overall accuracy   The Director concurred with              our
of disability claims processing at this         recommendation. Management’s planned
VARO.         Claims processing lacked          actions are responsive and we will follow up
consistent compliance with VBA procedures       as required.
and resulted in paying inaccurate and
unnecessary financial benefits.

Specifically, 6 of 30 temporary 100 percent
disability evaluations we reviewed were
inaccurate.     Errors in processing the
temporary evaluations generally occurred
because VARO staff did not enter suspense
diaries into the electronic record or take
timely action to reduce benefits as
appropriate. Additionally, staff incorrectly             LINDA A. HALLIDAY

processed 2 of 19 traumatic brain injury              Assistant Inspector General

claims.                                               For Audits and Evaluations


VARO managers ensured Systematic
Analyses of Operations were complete and
timely. However, staff did not always
accurately address Gulf War veterans’
entitlement to mental health treatment.
VARO staff provided adequate outreach to

                                                                                           i
                                           TABLE OF CONTENTS


Introduction......................................................................................................................................1

Results and Recommendations ........................................................................................................2

    I.        Disability Claims Processing ............................................................................................2

              Finding	           Milwaukee VARO Could Improve Disability Claims Processing

                                 Accuracy ......................................................................................................2

                                 Recommendation .........................................................................................6

    II.       Management Controls.......................................................................................................8

    III.      Eligibility Determinations.................................................................................................9

    IV.       Public Contact.................................................................................................................10

Appendix A                       VARO Profile, Scope, and Methodology of Inspection ............................11

Appendix B                       Inspection Summary ..................................................................................13

Appendix C                       VARO Director’s Comments.....................................................................14

Appendix D                       Office of Inspector General Contact and Staff Acknowledgments ...........16

Appendix E                       Report Distribution ....................................................................................17





                                                                                                                                                 ii
                                                             Inspection of the VARO Milwaukee, WI



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In March 2013, we inspected the Milwaukee VARO. The inspection focused
Inspection          on the following four protocol areas: disability claims processing,
                    management controls, eligibility determinations, and public contact. Within
                    these areas, we examined two high-risk claims processing areas: temporary
                    100 percent disability evaluations and traumatic brain injury (TBI) claims.
                    We also examined three operational activities: Systematic Analyses of
                    Operations (SAOs), Gulf War veterans’ entitlement to mental health
                    treatment, and the homeless veterans outreach program.

                    We reviewed 30 (9 percent) of 324 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We examined 19 of the 21 total claims related
                    to TBI that VARO staff completed from October through December 2012.
                    Two of the 21 completed TBI claims folders were unavailable for review.

Other               	 Appendix A includes details on the VARO and the scope of our
Information            inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the VARO Director’s comments on this report.



VA Office of Inspector General                                                                 1
                                                                    Inspection of the VARO Milwaukee, WI



                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing

Claims              The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy            these claims processing issues and assessed their impact on veterans’
                    benefits.

Finding	            Milwaukee VARO Could Improve Disability Claims Processing
                    Accuracy

                    The Milwaukee VARO did not consistently process temporary 100 percent
                    disability evaluations and TBI cases accurately. Overall, VARO staff
                    incorrectly processed 8 of the total 49 disability claims we sampled. We
                    identified 69 improper monthly payments to 3 veterans totaling
                    $53,010 from February 2009 until March 2013.

                    We sampled claims related to specific conditions we considered at higher
                    risk of processing errors. As a result, the errors identified do not represent
                    the universe of disability claims processed at this VARO. As reported by
                    VBA’s Systematic Technical Accuracy Review (STAR) program as of
                    March 2013, the overall accuracy of the VARO’s compensation rating-
                    related decisions was 94.9 percent—4.9 percentage points above VBA’s
                    target of 90 percent. The STAR program information was not reviewed
                    during the scope of this inspection.

                    The following table reflects the errors affecting, and those with the potential
                    to affect, veterans’ benefits processed at the Milwaukee VARO.

Table 1
                              Milwaukee VARO Disability Claims Processing Accuracy
                                                                       Claims Inaccurately Processed
                                                  Number
                           Type of Claim         of Claims     Affecting        Potential To
                                                                                                    Total
                                                 Reviewed      Veterans’      Affect Veterans’
                                                                                                    Errors
                                                                Benefits          Benefits
                      Temporary 100 Percent
                                                   30              3                  3                6
                      Disability Evaluations
                      Traumatic Brain Injury
                                                   19              0                  2                2
                      Claims
                      Total                        49              3                  5                8
                      Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at
                      least 18 months or longer and TBI disability claims completed in the first quarter
                      FY 2013




VA Office of Inspector General                                                                                2
                                                              Inspection of the VARO Milwaukee, WI


Temporary           VARO staff incorrectly processed 6 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
                    disability evaluation for a service-connected disability following a veteran’s
Evaluations
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, including confirmed and
                    continued evaluations where rating decisions do not change veterans’
                    payment amounts, VSC staff must input suspense diaries in VBA’s
                    electronic system. During this inspection, we identified three instances
                    where suspense diaries were not established as required. A suspense diary is
                    a processing command that establishes a date when VSC staff must schedule
                    a medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the
                    reexamination.

                    Without effective management of these temporary ratings, VBA is at risk of
                    paying inaccurate financial benefits. Available medical evidence showed
                    three of the six processing errors we identified affected veterans’ benefits
                    and resulted in 69 improper monthly overpayments to 3 veterans totaling
                    $53,010 from as early as February 2009 until March 2013. The most
                    significant overpayment occurred when VARO staff delayed scheduling a
                    medical reexamination for a veteran’s prostate cancer. However, available
                    medical evidence no longer supported a temporary 100 percent disability
                    evaluation because the veteran’s cancer was no longer active. As a result,
                    VA continued processing monthly benefits and ultimately overpaid this
                    veteran a total of $36,142 over a period of 1 year and 5 months.

                    The remaining three of the six errors had the potential to affect veterans’
                    benefits. In cases where routine future medical reexaminations were not
                    scheduled as required, claims processing delays ranged from approximately
                    1 year to 2 years and 4 months. An average of approximately 1 year and
                    10 months elapsed from the time staff should have scheduled these medical
                    reexaminations through the date of our inspection.

                    Summaries of the six total errors we identified follow.

                    	 Three errors occurred when staff did not establish suspense diaries in the
                       electronic record as required; thus, the system did not generate automated
                       alert notifications to schedule medical reexaminations. However, these
                       three errors occurred prior to VBA’s system modifications to
                       automatically establish and retain suspense diaries in the electronic
                       record.
                    	 Two errors occurred when staff did not take timely final action to reduce
                       benefits after notifying the veterans of the intent to do so. On average,

VA Office of Inspector General                                                                  3
                                                              Inspection of the VARO Milwaukee, WI


                        approximately 2 years and 2 months elapsed from the time staff should
                        have reduced benefits until March 2013. The delays ranged from
                        3 months to 4 years and 1 month.
                    	 One error occurred when a Rating Veterans Service Representative
                       (RVSR) cancelled the reminder notification for a routine future
                       examination. However, the RVSR did not complete a deferred rating
                       decision documenting the reason for cancelling the reminder notification
                       or providing a new date to schedule the reexamination. In this case, the
                       medical evidence showed the veteran’s thyroid cancer was active and the
                       temporary 100 percent disability evaluation was warranted.

                    In November 2009, VBA provided refresher guidance to VARO staff about
                    the need to input suspense diaries to the electronic record to provide
                    reminders to schedule medical reexaminations. However, VARO managers
                    had no oversight procedures in place to ensure VSC staff established
                    suspense diaries and scheduled reexaminations timely.            Temporary
                    100 percent disability evaluations and related monthly benefits could have
                    continued uninterrupted over the veterans’ lifetimes if we had not identified
                    the need for VARO staff to take actions to schedule reexaminations.

Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response to      Disability Evaluations (Report No. 09-03359-71, dated January 24, 2011),
Prior Audit         the then-Acting Under Secretary for Benefits agreed to review all temporary
Report
                    100 percent disability evaluations and ensure each had a future examination
                    date entered in the electronic record. Our report stated, “If VBA does not
                    take timely corrective action, they will overpay veterans a projected
                    $1.1 billion over the next 5 years.” The then-Acting Under Secretary for
                    Benefits stated in response to our audit report that the target completion date
                    for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011,
                    then to June 30, 2012, and then again to December 31, 2012. Based on the
                    numerous delays and our continued findings, we are concerned about the
                    lack of urgency in completing this review, which is critical to minimize the
                    financial risk of making inaccurate benefits payments.

                    During our current inspection, we followed up on VBA’s national review of
                    its temporary 100 percent disability evaluation processing. We sampled
                    40 cases from the lists of cases that VBA provided to the Milwaukee VARO
                    for review and corrective action. We determined VARO staff accurately
                    reported taking actions, such as inputting suspense diaries or scheduling
                    reexaminations, on all 40 cases we reviewed. However, in comparing
                    VBA’s national review lists with our data on temporary 100 percent
                    disability evaluations, we found three cases involving prostate cancer that


VA Office of Inspector General                                                                   4
                                                              Inspection of the VARO Milwaukee, WI


                    VBA had not identified. We could not determine why VBA did not identify
                    these cases; however, we will continue monitoring this situation as VBA
                    works to complete its national review.

Follow-Up to        Our prior report, Inspection of the VA Regional Office, Milwaukee, WI
Prior VA OIG        (Report No. 10-03565-69, dated January 21, 2011), stated 14 of the total
Inspection
                    30 temporary 100 percent disability evaluations we reviewed had processing
                    errors. The majority of the errors occurred because staff did not enter
                    suspense diaries in the electronic record to ensure they received reminder
                    notifications to schedule VA medical reexaminations. In response to our
                    recommendations, the VARO Director agreed to review for accuracy the
                    162 temporary 100 percent disability evaluations we provided at the end of
                    the January 2011 inspection. The VARO Director also agreed to conduct
                    refresher training and to amend quality control procedures to ensure staff
                    entered suspense diaries in the electronic records. The OIG closed these
                    recommendations in August 2011.

                    Three of the six errors we identified during this current inspection involved
                    staff not entering suspense diaries in the electronic record. However, all of
                    these errors occurred before VBA implemented system modifications to
                    automatically establish and retain suspense diaries in the electronic record.
                    During future inspections, we will continue to monitor VARO performance
                    and the effectiveness of VBA’s system modifications related to managing
                    suspense diaries.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report
                    No. 11-00510-167, dated May 18, 2011), VBA agreed to develop and
                    implement a strategy for ensuring accurate TBI claims decisions. In May
                    2011, the then-Acting Under Secretary for Benefits provided guidance to
                    VARO Directors to implement a policy requiring a second signature on each
                    TBI case an RVSR evaluates until the RVSR demonstrates 90 percent
                    accuracy in TBI claims processing. The policy indicates second-signature
                    reviewers come from the same pool of staff as those used to conduct local
                    station quality reviews.

                    We determined VARO staff incorrectly processed 2 of 19 TBI claims—both
                    had the potential to affect veterans’ benefits. Descriptions of these two cases
                    follow.




VA Office of Inspector General                                                                   5
                                                             Inspection of the VARO Milwaukee, WI


                    	 In one case, VARO staff did not take final action to reduce a disability
                       evaluation from 70 to 10 percent disabling after notifying the veteran of
                       the intent to do so. At the time of our inspection, staff had delayed
                       finalizing the reduction, causing the veteran to continue to receive
                       improper payments for approximately 2 months. No overpayment was
                       created because according to VBA policy benefits are not generally
                       reduced retroactively, regardless of how long an RVSR takes to reduce
                       an evaluation. Monthly benefits for a veteran with a 70 percent disability
                       evaluation are valued at $1,293. When the veteran’s rating drops to
                       10 percent, the monthly benefit is reduced to $129, for a difference of
                       $1,164. Without timely, proper adjustment after the veteran is notified,
                       monthly benefit payments continue at incorrect amounts.
                    	 In the other case, an RVSR continued a 40 percent disability evaluation
                       for a veteran’s TBI, despite medical evidence showing the condition
                       warranted a zero percent evaluation. Although this error did not affect
                       the veteran’s overall combined monthly benefits, if left uncorrected, the
                       error has the potential to affect future benefits.

                    The two TBI claims processing errors were unique and did not constitute a
                    common trend, pattern, or systemic issue. Therefore, we determined the
                    VARO generally followed VBA policy when processing TBI claims and we
                    made no recommendation for improvement in this area.

Follow-Up to        Our prior report, Inspection of the VA Regional Office Milwaukee, WI
Prior VA OIG        (Report No.10-03565-69, dated January 21, 2011), stated 8 of the 21 TBI
Inspection
                    claims reviewed had processing errors. The majority of the errors occurred
                    because RVSRs misinterpreted VBA policy when evaluating TBI disability
                    claims. In response to our recommendations, the VARO Director agreed to
                    ensure appropriate staff received TBI refresher training. The Director also
                    planned to have TBI-related disability claims undergo an additional level of
                    review—a policy VBA adopted approximately 9 months later. The OIG
                    closed these recommendations in July and October 2011.

                    During our March 2013 inspection, we did not identify errors related to
                    misinterpreting VBA policy on TBI claims processing. Most of the claims
                    we reviewed contained accurate rating decisions that were consistent with
                    the policy and contained an additional level of review, as required. We
                    concluded the VARO’s corrective actions in response to our
                    2011 recommendations were adequate.

                     Recommendation

                    1.	 We recommend the Milwaukee VA Regional Office develop and
                        implement a plan to review for accuracy the 294 temporary 100 percent
                        disability evaluations remaining from our inspection universe and take
                        appropriate actions.


VA Office of Inspector General                                                                 6
                                                              Inspection of the VARO Milwaukee, WI


Management          The VARO Director concurred with our recommendation. VARO staff
Comments            reviewed the 294 temporary 100 percent disability evaluations remaining
                    from the OIG’s inspection universe and took appropriate actions.
OIG Response        The Director’s comments and actions are responsive to the recommendation.
                    No further follow up action is required since the Director provided a detailed
                    spreadsheet that showed the actions taken on each of the 294 cases.




VA Office of Inspector General                                                                  7
                                                            Inspection of the VARO Milwaukee, WI


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of SAOs. We also considered
Operations
                    whether VSC staff used adequate data to support the analyses and
                    recommendations identified within each SAO. An SAO is a formal analysis
                    of an organizational element or operational function. SAOs provide an
                    organized means of reviewing VSC operations to identify existing or
                    potential problems and propose corrective actions. VARO management
                    must publish annual SAO schedules designating the staff required to
                    complete the SAOs by specific dates. The VSC Manager is responsible for
                    ongoing analysis of VSC operations, including completing 11 SAOs
                    annually.

                    VARO management ensured all SAOs contained sufficient analyses using
                    appropriate data, identified deficiencies, and made recommendations for
                    improvements as appropriate.      The SAOS were also submitted by the
                    required due date.

Follow-Up to        In our previous report, Inspection of the VA Regional Office Milwaukee, WI
Prior VA OIG        (Report No. 10-03565-69, dated January 21, 2011), we concluded that
Inspection          Milwaukee VARO management followed VBA policies by timely
                    completing all required SAOs. For all SAOs where staff identified existing
                    or potential problems, management made recommendations for
                    improvement. Our current inspection results further indicate VARO staff
                    consistently used adequate data to support SAOs and recommendations and
                    submitted them timely according to the annual schedule. As such, we made
                    no recommendation for improvement in this area.




VA Office of Inspector General                                                                8
                                                             Inspection of the VARO Milwaukee, WI


                    III. Eligibility Determinations

Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for
Mental
                    According to VBA, whenever an RVSR denies a Gulf War veteran service
Disorders           connection for any mental disorder, the RVSR must consider whether the
                    veteran is entitled to receive mental health treatment. However, the RVSR
                    should address entitlement to mental health care in the decision when the
                    entitlement can be granted.

                    In February 2011, VBA updated its Rating Board Automation 2000, a
                    computer application designed to assist RVSRs in preparing disability
                    ratings. The application provides a pop-up notification, known as a tip
                    master, to remind staff to consider a Gulf War veteran’s entitlement to
                    mental health care treatment when denying service connection for a mental
                    disorder. This pop-up notification does not generate if a previous decision
                    did not address entitlement to mental health services and a mental condition
                    is not part of the current claim.

                    VARO staff did not properly address whether 3 of 30 Gulf War veterans
                    were entitled to receive treatment for mental disorders. RVSRs should have
                    granted entitlement to medical treatment for all three veterans as VA medical
                    records confirmed diagnoses of a mental health disorder within 2 years of
                    separation from military service.

                    All RVSRs we interviewed correctly explained the procedures for addressing
                    entitlement to mental health care. Management reported staff received
                    formal training in this area during FY 2012. We confirmed the two RVSRs
                    responsible for making the three errors we identified had completed this
                    training.

                    Because VARO staff completed most mental health care decisions for Gulf
                    War veterans correctly, we determined staff generally followed VBA policy
                    when addressing these entitlement decisions. The three errors we identified
                    did not constitute a common trend, pattern, or systemic issue necessitating
                    VARO-wide corrective actions. As such, we made no recommendation for
                    improvement in this area.




VA Office of Inspector General                                                                 9
                                                            Inspection of the VARO Milwaukee, WI


                    IV. Public Contact

Outreach to         In November 2009, VA developed a 5-year plan to end homelessness among
Homeless            veterans by assisting every eligible homeless veteran willing to accept
Veterans
                    services. VBA generally defines “homeless” as lacking a fixed, regular, and
                    adequate nighttime residence.

                    Congress mandated that at least one full-time employee oversee and
                    coordinate homeless veterans programs at each of the 20 VAROs that VA
                    determined to have the largest veteran populations. VBA guidance, last
                    updated in September 2002, directed that coordinators at the remaining
                    VAROs be familiar with requirements for improving the effectiveness of
                    VARO outreach to homeless veterans.          These requirements include
                    developing and updating a directory of local homeless shelters and service
                    providers. Additionally, the coordinators should attend regular meetings
                    with local homeless service providers, community government, and
                    advocacy groups to provide information on VA benefits and services.

                    The Milwaukee VARO is not one of the 20 VAROs designated to have a
                    full-time coordinator to oversee its homeless veterans program.
                    Management ensured adequate outreach to homeless veterans, shelters, and
                    service providers by creating a committee of homeless coordinators
                    comprised of several public contact outreach specialists. By using the
                    committee approach, the VARO maximized resources available to participate
                    in community service events specific to homeless veterans in counties under
                    the VARO’s jurisdiction.

                    Because the VARO provided information on VA benefits and services to
                    homeless shelters and service providers as required, we made no
                    recommendation for improvement in this area. However, VBA needs
                    performance measures for its homeless veterans outreach program. Without
                    such measures, we cannot fully assess the effectiveness of its outreach
                    activities.




VA Office of Inspector General                                                               10
                                                             Inspection of the VARO Milwaukee, WI


Appendix A          VARO Profile, Scope, and Methodology of Inspection

Organization        The Milwaukee VARO administers a variety of services and benefits,
                    including compensation and pension benefits; vocational rehabilitation and
                    employment assistance; specially adapted housing grants; benefits
                    counseling; and outreach to homeless, elderly, minority, and women
                    veterans. The VARO serves as a Pension Management Center administering
                    pension and survivor benefits programs for veterans and their dependents in
                    Wisconsin, along with 11 other states. Additionally, it serves as a hub for
                    Fiduciary Services, providing services for seven states, including Michigan’s
                    Upper Peninsula.

Resources           As of March 9, 2013, the Milwaukee VARO had a staffing level of
                    623.9 full-time employees. Of this total, the VSC had 145.1 employees
                    assigned.

Workload            As of March 1, 2013, the VARO reported 6,023 pending compensation
                    claims. The average time to complete claims was 180.9—69.1 days less than
                    the FY 2013 national target of 250 days.

Scope               VBA has 56 VAROs and 1 VSC in Cheyenne, Wyoming, that process
                    disability claims and provide a range of services to veterans. We evaluated
                    the Milwaukee VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders.

                    Our review included 30 (9 percent) of 324 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    January 28, 2013. We reviewed 30 claims and provided VARO management
                    with 294 claims remaining from our universe of 324 for its review. As
                    follow-up to our national audit, we also sampled 40 temporary 100 percent
                    disability evaluations from the SharePoint list VBA provided to the VARO
                    as part of its national review. We also reviewed 19 (90 percent) of 21 total
                    TBI-related disability claims that the VARO completed from October
                    through December 2012.

                    Where we identified potential procedural inaccuracies, we provide this
                    information to help VAROs understand the procedural improvements it can
                    make for enhanced stewardship of financial benefits. We do not provide this
                    information to require VAROs to adjust specific veterans’ benefits.


VA Office of Inspector General                                                                11
                                                               Inspection of the VARO Milwaukee, WI


                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

                    We assessed the 11 most recent mandatory SAOs the VARO completed in
                    FY 2012 and FY 2013. We examined 30 completed claims processed for
                    Gulf War veterans from October through December 2012 to determine
                    whether VSC staff addressed entitlement to mental health treatment in the
                    rating decision documents as required.       Further, we assessed the
                    effectiveness of the VARO’s homeless veterans outreach program by
                    reviewing its directory of homeless shelters and service providers and
                    determining whether staff regularly attended meetings and provided
                    information on VA benefits and services.

Data                We used computer-processed data from the Veterans Service Network’s
Reliability         Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed whether the data contained obvious duplication of records,
                    alphabetic or numeric characters in incorrect fields, or illogical relationships
                    among data elements. Further, we compared veterans’ names, file numbers,
                    Social Security numbers, VARO numbers, dates of claim, and decision dates
                    as provided in the data received with information contained in the claims
                    folders we reviewed.

                    Our testing of the data disclosed that they were sufficiently reliable to meet
                    our inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders at the Milwaukee VARO did not
                    disclose any problems with data reliability.

                    While this report references VBA’s STAR data, the overall accuracy of the
                    Milwaukee VARO’s compensation rating-related decisions was
                    94.9 percent—4.9 percentage points above VBA’s FY 2013 target of
                    90 percent. This data was not reviewed as part of this inspection.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our inspection objectives.




VA Office of Inspector General                                                                   12
                                                                         Inspection of the VARO Milwaukee, WI


Appendix B             Inspection Summary

                       Table 2 reflects the operational activities inspected, applicable criteria, and
                       whether or not we had reasonable assurance of VARO compliance.

                           Table 2. Milwaukee VARO Inspection Summary
                                                                                                 Reasonable
     Five Operational                                  Criteria                                  Assurance of
         Activities
                                                                                                 Compliance
        Inspected
                                                                                                 Yes     No
                                          Disability Claims Processing
    1. Temporary          Determine whether VARO staff properly processed temporary
       100 Percent        100 percent disability evaluations. (38 CFR 3.103(b)) (38 CFR
       Disability                                                                                         X
                          3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart ii, Chapter 2,
       Evaluations        Section J) (M21-1MR Part III, Subpart iv, Chapter 3, Section C.17.e)

    2. Traumatic          Determine whether VARO staff properly processed claims for all
       Brain Injury       disabilities related to in-service TBI. (FL 08-34 and FL 08-36)         X
       Claims             (Training Letter 09-01)

                                             Management Controls
    3. Systematic         Determine whether VARO staff properly performed formal
       Analysis of        analyses of their operations through completion of SAOs. (M21­          X
       Operations         4, Chapter 5)

                                            Eligibility Determinations
    4 Gulf War            Determine whether VARO staff properly processed Gulf War
      Veterans’           veterans’ claims, considering entitlement to medical treatment
      Entitlement to      for mental illness. (38 United States Code 1702) (38 CFR 3.384)
                                                                                                  X
      Mental Health       (38 CFR 3.2) ( M21-1MR Part IX, Subpart ii, Chapter 2)
      Treatment           (M21-1MR Part III, Subpart v, Chapter 7) (FL 08-15)
                          (38 CFR 3.384) (38 CFR 3.2)
                                                 Public Contact
    5. Homeless           Determine whether VARO staff provided effective outreach
       Veterans           services. (Public Law 107-95) (VBA Letter 20-02-34) (VBA
                                                                                                  X
       Outreach           Circular 27-91-4) (FL 10-11) (M21-1, Part VII, Chapter 6) (M27-1,
       Program            Part II, Chapter 2)
    Source: VA OIG
    CFR=Code of Federal Regulations, FL= Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                                13
                                                                    Inspection of the VARO Milwaukee, WI


Appendix C             VARO Director’s Comments



                  Department of                                 Memorandum
                  Veterans Affairs
          Date:      July 25, 2013
          From:
                     Director, VA Regional Office Milwaukee, Wisconsin
          Subj:
                     Inspection of the VA Regional Office, Milwaukee, Wisconsin

            To:
                     Assistant Inspector General for Audits and Evaluations (52)




                  1. The Milwaukee VARO’s comments are attached on the OIG Draft Report:
                     Inspection of the VA Regional Office, Milwaukee, Wisconsin.

                  2. Please refer questions to Barb Nehls, Veterans Service Center Manager, at
                     (414) 902-5045.

                      (Original signed)

                      Robert Granstrom

                      Director, VARO Milwaukee



                     Attachment




VA Office of Inspector General                                                                       14
                                                             Inspection of the VARO Milwaukee, WI


Recommendation 1:          We recommend the Milwaukee VA Regional Office develop and
implement a plan to review for accuracy the 294 temporary 100 percent disability evaluations
remaining from our inspection universe and take appropriate actions.

Milwaukee RO Response: Concur

Milwaukee completed the review of the 294 temporary 100 percent disability evaluations
remaining from the OIG inspection universe and took all appropriate actions in April 2013.
A spreadsheet detailing the actions taken was provided to OIG on April 10, 2013.
An updated spreadsheet is being provided. All cases will be tracked until appropriate actions are
taken.




VA Office of Inspector General                                                                15
                                                     Inspection of the VARO Milwaukee, WI


Appendix D	 Office of Inspector General Contact and Staff
            Acknowledgments

                      OIG Contact	       For more information about this report,
                                         please contact the Office of Inspector
                                         General at (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Kristine Abramo
                                         Robert Campbell
                                         Madeline Cantu
                                         Ramon Figueroa
                                         Kyle Flannery
                                         Lee Giesbrecht
                                         Nelvy Viguera Butler




VA Office of Inspector General                                                        16
                                                              Inspection of the VARO Milwaukee, WI


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Central Area Director
                    VA Regional Office Milwaukee Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Tammy Baldwin, Ron Johnson
                    U.S. House of Representatives: Sean P. Duffy, Ron Kind, Gwen Moore,
                       Thomas Petri, Mark Pocan, Reid Ribble, Paul Ryan,
                       James F. Sensenbrenner




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                 17
